        OFFICE OF INSPECTOR GENERAL

                                  Catalyst for Improving the Environment



Audit Report




        EPA Can Improve Use of
        Federal Supply Schedules
        When Procuring Services

        Report No. 2003-P-00015


        September 29, 2003
Report Contributors:                         Herb Maletz
                                             Tapati Bhattacharyya
                                             Richard Valliere
                                             Michael Petscavage



Abbreviations

AMR          Acquisition Management Review
CO           Contracting Officer
EPA          Environmental Protection Agency
FAR          Federal Acquisition Regulation
FSS          Federal Supply Schedule
GAO          General Accounting Office
GSA          General Services Administration
ICMS         Integrated Contract Management System
IGCE         Independent Government Cost Estimate
NIH          National Institutes of Health
OAM          Office of Acquisition Management
OARM         Office of Administration and Resources Management
OIG          Office of Inspector General
ORD          Office of Research and Development
PO           Project Officer
RFQ          Request for Quote
RTPPOD       Research Triangle Park Procurement Operations Division
SOW          Statement of Work
SPEDI        Small Purchase Electronic Data Interchange
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                           OFFICE OF
                                                                                      INSPECTOR GENERAL




                                       September 29, 2003

MEMORANDUM

SUBJECT:             EPA Can Improve Use of Federal Supply Schedules
                     When Procuring Services
                     Report No. 2003-P-00015


FROM:                Robert Mitchell /signed/
                     Director for Contract Audits
                     Office of Audit (2421T)

TO:                  Morris X. Winn
                     Assistant Administrator
                     Office of Administration and Resources Management (3101A)


This is our final report on the subject audit conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This audit report contains findings that
describe problems the OIG has identified and corrective actions the OIG recommends. This
audit report represents the opinion of the OIG and the findings contained in this report do not
necessarily represent the final EPA position. Final determinations on matters in this audit report
will be made by EPA managers in accordance with established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to the
findings and recommendations presented in this audit report within 90 calendar days of the date
of this report. You should include a corrective actions plan for agreed-upon actions, including
milestone dates. We have no objection to the further release of this report to the public. For
your convenience, the report will be available at http://www.epa.gov/oigearth/eroom.htm.

If you or your staff have any questions regarding this report, please contact me at
(202) 566-0891 or Mitchell.Robert@epa.gov.
cc:   Judy Davis, Director, Office of Acquisition Management (3801R)
      Bernie Davis, Office of Administration and Resources Management (3102A)
      Arnold Bloom, Office of Research and Development (2450T)
                    Executive Summary
Purpose
          We conducted this audit to determine whether the Environmental Protection
          Agency (EPA) effectively utilized the General Services Administration’s (GSA’s)
          Federal Supply Schedule (FSS) to procure services at the best value. We
          considered the following questions:

          •   Did EPA obtain adequate competition for FSS task orders?

          •   Did the Agency follow established policies, procedures, and regulations in
              awarding FSS task orders to ensure EPA received fair and reasonable prices?

          •   Do EPA information systems provide adequate, reliable, and timely data for
              effectively tracking and managing FSS awards?

Results of Review
          EPA contracting and program office personnel can increase competition for FSS
          awards by seeking and obtaining competitive quotes from more than just
          incumbent contractors. Of the 39 task orders reviewed, 30 ($62.5 million of
          $72.3 million) were awarded without competing quotes. This occurred because of
          inadequate sole source justifications, inadequate planning, rushed procurements,
          inadequate market research, and providing contractors’ limited time to submit
          quotes. Consequently, EPA has limited assurance that it is receiving the best
          value for the services acquired, since lack of competition can result in incumbents
          having little or no incentive to offer discounts or lower prices. Studies have
          shown that competition can save the Government between 15 and 50 percent of
          the costs of goods and services. Therefore, we believe EPA could have realized
          significant savings and promoted greater efficiency, innovation, and quality by
          receiving competing quotes for FSS orders.

          EPA awarded FSS orders without always complying with established policies,
          procedures, and regulations. Specifically, statements of work were not always
          performance-based, requests for quotes lacked required evaluation factors,
          independent government cost estimates lacked necessary information, quotes
          were inadequately evaluated, best value and/or price reasonableness analyses
          were missing or inadequate, price reductions were not sought from contractors,
          and contractor performance was not evaluated for future selection consideration.
          These conditions were generally caused by inadequate procurement planning and
          insufficient knowledge of procedures. As a result, there was limited assurance
          that EPA received best value, and EPA potentially expended unnecessary funds.



                                           i
         FSS information generated by EPA’s databases was often incomplete, inaccurate,
         and unreliable. Among other things, the primary systems used cannot report total
         annual FSS obligation and award amounts, or the total number of transactions.
         We also noted that information was often recorded in other than the primary
         systems. The conditions noted occurred because EPA has not developed and/or
         implemented a system that would allow the consistent recording, accumulation,
         and reporting of FSS award data. Unreliable procurement data affects
         information submitted to Congress and other stakeholders, and EPA itself did not
         have sufficient information to analyze workloads and support budget requests.

Recommendations

         We made various recommendations for the Assistant Administrator for the Office
         of Administration and Resources Management to require the Director of the
         Office of Acquisition Management to take steps to increase competition in FSS
         awards, improve compliance with regulations and procedures, and improve
         recording of FSS data.

Agency Comments and OIG Evaluation

         On July 25, 2003, we issued a draft report to the Office of Administration and
         Resources Management (OARM). Because our report includes findings that are
         specific to the Office of Research and Development (ORD), ORD was also
         furnished a copy of the draft report. On August 29, 2003, we received responses
         from OARM and ORD (see Appendices D and E, respectively). While the
         Agency did agree to with some of our recommendations, they disagreed with
         others. The Agency specific responses and our evaluation of their responses can
         be found in the individual chapters of the report.




                                         ii
                                      Table of Contents

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       i



 Chapters

          1         Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1

          2         EPA Can Increase Competition for FSS Awards . . . . . . . . . . . . . . . . . . .                                 3

          3         EPA Needs to Improve Compliance With
                    Established Regulations and Procedures . . . . . . . . . . . . . . . . . . . . . . . .                           15

          4         EPA Needs to Improve Recording of Data . . . . . . . . . . . . . . . . . . . . . . . .                           25



 Appendices
          A         Sampled FSS Procurements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   29

          B         Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       33

          C         Task Order Checklist . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           35

          D         OARM Response to the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        37

          E         ORD Response to the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     45

          F         Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   49




                                                                   iii
                                Chapter 1
                                 Introduction
Purpose
          We conducted this audit to determine whether the Environmental Protection
          Agency (EPA) effectively utilized the General Services Administration’s (GSA’s)
          Federal Supply Schedule (FSS) to procure services at the best value. "Best value"
          is defined in the Federal Acquisition Regulation (FAR) as the expected outcome
          of an acquisition that, in the Government's estimation, provides the greatest
          overall benefit in response to the requirement. We considered the following
          questions:

          •   Did EPA obtain adequate competition for FSS task orders?
          •   Did the Agency follow established policies, procedures, and regulations in
              awarding FSS task orders to ensure EPA received fair and reasonable prices?
          •   Do EPA information systems provide adequate, reliable, and timely data for
              effectively tracking and managing FSS awards?

Background
          The FSS program, directed and managed by GSA, provides Federal agencies with
          a simplified process for obtaining commonly used commercial supplies and
          services at prices associated with volume buying. The GSA schedule contracting
          office issues FSSs with the information necessary for placing orders with
          contractors. Ordering agencies issue orders directly to these contractors for
          supplies and services.

          FSS sales have increased significantly in recent years. Total government-wide
          FSS procurements increased from $6.1 billion (in constant fiscal year 2001
          dollars) in fiscal 1997 to almost $22 billion in fiscal 2002. Based on available
          information, we estimate that EPA’s FSS obligations increased from
          $11.9 million in fiscal 1997 to $75.6 million in fiscal 2002. (Chapter 4 of this
          report explains why accurate figures could not be obtained).

          In 1998, GSA published special ordering procedures, as provided for in FAR
          8.402. Also in 1998, GSA published “Ordering and Best Value Determination
          Guidelines.” The special ordering procedures for orders between $2,500 and the
          maximum order threshold (generally $1 million) require agencies to: (1) prepare a
          request for quote (RFQ), (2) send the RFQ to at least three FSS contractors based
          on evaluating catalogs and price lists, and (3) evaluate quotes and select the
          contractor based on factors identified in the RFQ. These procedures require the


                                           1
         ordering agency to consider the level of effort and mix of labor proposed to
         perform specific tasks, and make a fair and reasonable price determination.

         In addition, if the requirement exceeds the schedule’s maximum order threshold,
         the RFQ should be provided to additional sources and a price reduction sought.
         Responses should be evaluated against factors identified in the RFQ, and the
         contractor that represents the best value should be selected.

         EPA’s Office of Acquisition Management (OAM) is responsible for policies,
         procedures, operations, and support of the Agency’s procurement and contracts
         management program. OAM’s Information Technology Service Center is
         responsible for managing the Integrated Contract Management System, Small
         Purchase Electronic Data Interchange, and other procurement information
         systems. With regard to the FSS, both OAM and EPA program offices with
         approved contracting personnel can issue FSS orders directly to GSA schedule
         contractors. In doing so, the ordering office is responsible for ensuring that its
         orders are compliant with applicable laws, regulations, and the GSA ordering
         procedures. For the cases we reviewed, EPA project officers (POs) submitted
         requests for FSS orders to EPA contracting officers (COs), who issued the orders.

Scope and Methodology

         We performed this audit in accordance with Government Auditing Standards
         (1994), issued by the Comptroller General of the United States. This audit
         included tests of program records and other auditing procedures. We reviewed
         FSS task orders with obligations from fiscal 2000 to 2002. Our review included a
         sample of 39 FSS awards from OAM Headquarters, the OAM Research Triangle
         Park Procurement Operations Division (RTPPOD), and the Office of Research
         and Development (ORD) Narragansett Laboratory. Those 39 awards are
         summarized in the following table and detailed in Appendix A. Further details on
         our scope and methodology, including sample selection and prior audit coverage,
         are in Appendix B.

                                   Table 1-1: FSS Awards Reviewed
                                              No. of Awards     Value of Awards Reviewed
                      Location                  Reviewed                 (millions)
          OAM Headquarters                          25                    $68.7
          OAM RTPPOD                                 7                       3.3
          ORD - Narragansett Lab                     7                       0.3
             Total                                  39                    $72.3




                                          2
                                Chapter 2
    EPA Can Increase Competition for FSS Awards
          EPA contracting and program office personnel can increase competition for FSS
          awards by seeking and obtaining competitive quotes from more than just
          incumbent contractors. Of the 39 task orders reviewed, 30 ($62.5 million of
          $72.3 million) were awarded without competing quotes. This occurred because
          of:

          •   Inadequate sole source justifications.
          •   Inadequate program office acquisition planning and rushed procurement.
          •   Inadequate market research to determine best value contractors.
          •   Contractors’ limited time to submit technical and cost data.

          Consequently, EPA has limited assurance that it is receiving the best value for the
          services acquired. Lack of competing quotes can result in a higher price, since
          incumbent contractors will have little or no incentive to offer discounts or lower
          prices. Obtaining the best value (considering price and other factors) allows EPA
          to maximize the results achieved from its contract dollars. Studies have shown
          that, looking only at cost, competition can save an agency between 15 and
          50 percent. Therefore, we believe EPA could have realized significant savings
          and promoted greater efficiency, innovation, and quality by receiving competing
          quotes for FSS orders.

Lack of Competition

          FAR 8.404(a) states that FSS orders are considered to be issued using full and
          open competition, provided that the FAR ordering procedures are followed. FAR
          and GSA special ordering procedures require, for orders over $2,500, an RFQ and
          Statement of Work (SOW) be sent to three schedule contractors, quotes be
          evaluated, and a best value selection made. However, we found that these
          procedures were not always followed, and even when they were, competing
          quotes were often not received.

          EPA received competing quotes for only 9 of 39 FSS awards reviewed. These
          nine were all for requirements where no incumbent was involved. However, the
          remaining 30 awards (29 of which were awarded to incumbent contractors) were
          made after receiving only a single quote. Of these 30, 17 were sole source awards
          (no competition sought). For the remaining 13, EPA sought three quotes but
          received only one. This means that out of $72.3 million awarded, only
          $9.8 million (13.6 percent) was awarded with competing quotes. Table 2-1 and
          Appendix A provide details.



                                           3
                 Table 2-1: Competition Received for Awards Reviewed

                             Awards With More Than      Awards With No More Than
                              One Quote Received          One Quote Received
                                            Value                        Value
            Location            No.       (millions)       No.         (millions)
 OAM Headquarters                5           $8.3           20           $60.4
 OAM RTPPOD                      3            1.4            4              1.9
 ORD - Narragansett Lab          1            0.1            6              0.2
    Total                        9           $9.8           30           $62.5


For example, for OAM Headquarters order 2W-0652-NBLX ($1,000,000), to
provide support for voluntary pollution prevention initiatives to reduce
transportation-related emissions, the CO sent a November 27 RFQ to five
contractors with a December 13 due date. However, in a November 29 memo, the
PO indicated that “while other vendors may be able to do the work, we are not in
a position at this time to hand over this work to a new vendor,” and that “a lapse
in work time or a change in vendors will significantly affect our ability to meet
senior management expectations.” The CO canceled the requests sent to the other
four vendors, noted that best value was not documented since no other quotes
were received, and indicated future orders will consider at least three firms.

Inadequate Justification of Sole Source Orders

EPA should provide better justification for sole source orders than it is currently
providing to ensure it is receiving best value. While FAR 8.4 and GSA ordering
procedures generally require requesting at least three quotes, they are silent on
whether sole source orders are allowable for FSS orders exceeding $2,500. The
General Accounting Office (GAO) addressed this issue in a November 2000
report, Not Following Procedures Undermines Best Pricing Under GSA’s
Schedule, stating that COs did not seek competitive quotes for services. GAO
recommended to the Office of Federal Procurement Policy that the FAR should
address whether FSS sole source orders for services are allowable, but this
revision has not yet been finalized.

While not specifically addressing FSS orders, guidance does exist for sole source
simplified acquisitions. OAM’s Simplified Acquisitions Made Easy (revised
August 2002) states that sole source justifications should include why only one
source can satisfy requirements, why other sources cannot, and measures taken to
allow for future competition. A sample sole source justification (FAR 6.303-2)
requires the specific exception to be checked, and a description of the contractor’s
unique qualifications, efforts to ensure offers were solicited from as many sources
as practicable, market research or reasons why research was not conducted, and




                                     4
other factors supporting other than full and open competition. The PO and CO
must certify that the justification is complete and accurate.

We believe EPA made sole source awards during fiscal 2000-2002 that were not
always adequately justified. Program offices took varying approaches in
preparing justifications to identify the exemption to the competition requirements
being claimed. In some cases, officials provided a convincing rationale, such as
by providing clear evidence that a service was unique and could only be
performed by a certain contractor. However, in many cases, the rationales were
less convincing. Furthermore, all 17 sole source justifications reviewed lacked
the required PO and CO signed certifications. Two examples follow:

•   For OAM Headquarters Order 2W-0653-NBLX ($1,052,751), which provided
    energy performance indices and small business support, a PO memorandum
    asked the CO to send an RFQ to the incumbent, stating “continuity is critical”
    and a contractor change would result in “significant dis-economies.” The CO
    acknowledged no written sole source justification was prepared. He
    explained that “obtaining quotes from other vendors...would not have been
    meaningful” because the incumbent was involved with most tasks. He went
    on to say that in the future “real competition” will be allowed between the
    incumbent and other GSA vendors, market research will be used to identify
    “credible competition,” and offerors will be given substantial time to develop
    quotes.

•   At ORD’s Narragansett Laboratory, for five sole source FSS task orders
    (totaling $117,479) for AT&T phone and Octel Voice Mail System
    maintenance, only the incumbent vendor was given an opportunity to provide
    a quote. Each sole source justification stated only one source could satisfy the
    Agency’s requirement for the “proprietary hardware.” However, the CO
    expressed concern about the lack of competition, noting that other vendors
    maintain these voice mail systems and the program office should look for
    such firms. Regarding one procurement, the CO noted in a memo: “I am
    awarding this contract based on the IT Manager’s sole source agreement even
    though I feel the agreement is not strong enough to justify not seeking
    competition. I found several companies that offer this service for much
    less. . . . I don’t feel this service is ‘Proprietary.’ The firm has Partnering
    agreements with other telecommunications firms and also has agreements for
    them to provide services as well.” However, the CO reluctantly approved the
    sole source acquisitions due to time constraints.

OAM officials advised that on occasion a “short term” sole source award may be
made to the incumbent to “bridge” the period until remaining tasks are completed
and additional competition can be sought. While a few sole source orders might
have been needed to complete remaining tasks, in most cases the new SOW
involved all or mostly all new tasks and thus should have been competed.


                                 5
OAM’s own Acquisition Management Reviews (AMRs) of Headquarters and
regional offices’ FSS activities also identified inadequate sole source
documentation. For example, the August 14, 2002, Region 3 AMR disclosed that
most sole source justifications lacked sufficient detail regarding the need to solicit
only one source. In those instances where the sole source justification stated
market research was conducted, there was no information regarding the research.
The AMR recommended that a form be provided for program offices to use in
documenting sole source justifications.

Inadequate Acquisition Planning and Rushed Procurement

EPA’s Five-Year Acquisition Plan and Acquisition Planning Forecast did not
identify most of the FSS awards reviewed. Also, many awards were rushed
because program offices generally did not provide required documents (e.g.,
procurement request, SOW) to allow COs adequate time to seek multiple quotes.

FAR 7.1 requires acquisition planning to promote and provide for full and open
competition. EPA’s five-year plan identifies acquisitions over $100,000, and
describes the (a) acquisition, (b) contract type, (c) procurement method (e.g., full
and open competition, FSS, to be decided after market research), and
(d) estimated dollar range. EPA’s Acquisition Planning Forecast summarizes
planned acquisitions for the first 2 years of the acquisition planning period.
Senior Resource Officials must update the acquisition plan in April of each year.
The Contract Management Manual (Chapter 1), Acquisition and Contract
Management Planning, reiterates this guidance, and emphasizes that program
offices should provide the CO a timely procurement request to meet the
anticipated lead time (from submission of procurement request until award) for
the acquisition. However, we found that none of the FSS awards over $100,000
that we reviewed were included in plans.

We also noted that program offices did not provide COs sufficient time to seek
competitive quotes for projects. For example, OAM Headquarters Order 2W-
0195-NBLX ($49,853) was a rushed sole source procurement awarded January
18, 2002, that replaced a task order that had already expired on December 31,
2001. On December 28, 2001 (3 days before contract expiration), the program
office submitted an incomplete procurement request (missing signatures and
dates). The program office had also submitted an incomplete SOW, independent
government cost estimate (IGCE), and quote evaluation.

Program offices must improve their acquisition planning to identify specific
needs, contract type, and procurement method in a timely manner. In addition, all
required documents (e.g., procurement request, SOW, IGCE, and market research
results) must be submitted to the CO in a reasonable time to review and modify, if
necessary, these documents. COs should not process orders which, in their
judgment, are substantially flawed.


                                  6
Inadequate Market Research

We noted numerous instances in which market research was not adequately
documented.

Documented market research is one of the first acquisition planning steps to
identify capable contractors to meet the Agency’s requirements. Market research
includes reviewing GSA price lists for as many firms as practicable; contacting
knowledgeable Government and industry individuals regarding capabilities to
meet requirements; participating in interactive, on-line communication among
industry, acquisition personnel, and customers; and obtaining source lists of
similar items from other contracting activities or agencies. FAR 7.1 requires
market research to promote and provide for open competition. Further, GSA
Special Ordering Procedures and EPA Procurement Policy Notice 99-3 state that,
based upon initial evaluation of at least three contractors’ catalogs and price lists,
ordering offices should identify those that appear to offer the best value.

Our review disclosed that award files generally did not contain evidence that GSA
catalogs and price lists were reviewed. Specifically, we found that 20 of the 25
OAM Headquarters’ awards did not adequately document required market
research. Of these 20, no market research was done for the 11 sole source
awards. For the remaining 9 awards, our review disclosed inadequate or no
documentation showing the extent (if any) of market research. Documentation
should show that at least three GSA Schedule price lists were reviewed, and
RFQs were sent to those vendors that EPA believed would provide the best value.
For the seven ORD Narragansett Laboratory orders in our review, we found that
there was no market research documentation for six orders, and the
documentation for the seventh was inadequate.

However, we did find that OAM’s RTPPOD performed sufficient market
research, as did the OAM Headquarters for five competitive orders. The proper
steps followed for several OAM Headquarters instances are noted in the
accompanying “Best Practices” box.




                                  7
     ** Best Practice **     Market Research
    For OAM Headquarters Orders 2W-0255-NBSX and 2W-0265-YBSA (total amount of
    $646,434), the PO conducted extensive research of more than 300 contractors listed
    on the MOBIS schedule and selected 10 potential candidates capable of performing
    SOW tasks. The PO also conducted telephone interviews to gather data on each of
    the contractors. The PO subsequently provided a list of six capable contractors. The
    CO sent RFQs to the four contractors deemed most capable, and received three
    quotes, from $431,000 to $590,000. The $431,000 quote was accepted.



We acknowledge that additional market research will not always result in
receiving multiple quotes, and adequate market research can be a time consuming
process. However, adequate market research will generally result in more than
one competitive quote, which could result in a better value for EPA (considering
price and other factors).

Limited Time to Respond to RFQs

Our review of RFQ response time indicated that there appears to be a correlation
between the number of days provided to respond to an RFQ and the number of
quotes actually received. Generally, the greater the number of days provided to
respond to an RFQ, the more offers received and significant savings achieved.
We reviewed the response time allotted for 25 OAM Headquarters awards and
7 OAM RTPPOD awards, and found the following:

•     At OAM Headquarters, 20 awards without competing quotes had an average
      response time of 9 business days, while the average response time for the
      5 awards with competing quotes was 14 days.

•     At OAM RTPPOD, 4 awards without competing quotes had an average
      response time of 6 business days, while the average response time for the
      3 awards with competing quotes was 11 days.

For example, for OAM Headquarters Order 1W-1266-NBLX ($280,307), the PO
stated he was under “tremendous pressure to have a contract fast,” and indicated
contracting with the incumbent sole source was the preferred procurement
method. Although the CO sent out three RFQs, only 5 business days were
allowed for response, and only the incumbent responded.

Reasonable and flexible response times should be established to help assure that
competing quotes are received. EPA should err on the side of more rather than
less time for contractors to prepare detailed cost and technical data. For each
service order estimated to exceed $100,000, we believe that, in most cases, a
minimum of 15 business days should be allotted. For orders greater than



                                      8
          $1 million, generally a minimum of 20 days should be considered. If less time is
          needed, the reason why should be documented in the CO’s files. The examples in
          the “Best Pratices” box demonstrate the value of providing sufficient time to
          respond to RFQs.

               ** Best Practice **     Response Time for RFQs
              OAM Headquarters COs for Orders 2W-1606 ($1,079,000), 2W-0694 ($1,139,342),
              and 1W-1943 ($5,378,252) allowed 21, 14, and 12 business days to respond to an
              RFQ, respectively. As a result, six, five, and four competitive quotes were received,
              which resulted in significant EPA savings. Such savings can be seen by reviewing the
              four quotes for Order 1W-1943 that ranged between $5,378,252 and $10,327,857.


          Others in the Federal Government have noted the importance of adequate
          response time. In May 2002, the Department of Defense planned to require its
          COs to give contractors more time to respond to RFQs. The Pentagon’s
          Acquisition Chief stated, “too often you see RFQs released on a Friday with the
          bids due on Monday. . . . It is well known in industry that when there is a shorter
          time frame, it often means that the customer knows who they want to award the
          contract to.”

Small Awards Often Modified into Larger Awards

          It should be noted that an order that starts off as a small award can subsequently
          be modified to substantially increase the original award amount without
          competing quotes. Of the 25 OAM Headquarters orders reviewed, 7 awards
          (totaling $3,384,918) were subsequently modified (to total obligations of
          $6,236,828) to include new tasks not in the original SOW. Six of the seven
          original orders were awarded without competing quotes. For example, Order
          1W-0695, which had an original award amount of $774,485, had total obligations
          of $1,995,112 after modifications. If this order had initially been awarded at the
          modified amount, other requirements would have been applicable (such as the
          need for additional RFQs to be sent and to negotiate a better price) since the
          $1 million threshold was exceeded.

Actions Taken in Other Areas to Improve Competition

          EPA actions regarding competing for assistance agreements, as well as
          Department of Defense actions to increase competition for FSS orders, and should
          be considered for EPA FSS orders:

          •     As a result of concerns about the lack of competition for assistance
                agreements raised by Congress, GAO, and EPA’s Office of Inspector General
                (OIG), the EPA Administrator issued EPA Order 5700.5, Policy for
                Competition in Assistance Agreements (September 12, 2002). The order


                                                9
                states that program offices should generally notify at least five potential
                applicants for eligible grant awards exceeding $75,000. The Administrator
                further stated that the Office of Administration and Resources Management
                (OARM) should provide leadership in competition planning and guidance.
                Although this Order only applies to assistance agreements, we believe a
                similar competition requirement (at least for procurements exceeding
                $100,000) should exist for FSS awards.

          •     Competition concerns prompted Congress in December 2001 to pass Section
                803 of the Fiscal 2002 Defense Authorization Act (Public Law 107-107),
                effective June 2002. It requires officials to provide a fair opportunity to as
                many contractors as practicable to bid, and to receive at least three bids for
                FSS services exceeding $100,000. If the three required bids are not obtained,
                the CO must document that no additional qualified contractors could be
                identified despite reasonable efforts. The Pentagon’s Acquisition Chief stated
                in November 2002 that too many contracts were awarded without
                competition, and under the new Section 803 rules, officials would now keep
                solicitations open “for longer than just a few days.” Section 803 provides
                EPA an excellent basis to implement a similar procurement policy.

          In addition to our review of the 39 orders in our sample, we became aware of a
          good example in Region 7 as to how significant savings can be achieved when
          competition is sought, market research is conducted, and ample time is allotted
          for responses. This example is discussed in the following “Best Practices” box.

               ** Best Practice **     Response Time for RFQs
              On June 27, 2001, Region 7 awarded a $2,492,908 FSS order (1K-1796-YBWW) for
              ADP telephone and help desk services. Based on extensive market research, the
              Region sent RFQs to five contractors, and held a pre-bid conference to discuss the
              performance-based SOW. As a result, four of the five contractors submitted quotes
              ($2.4 to $3.8 million). Most of these contractors voluntarily provided price quotes
              below the GSA-approved rates. The quotes were evaluated against the detailed
              IGCE ($3.5 million), and the lowest quote was selected ($2.4 million). The award thus
              saved EPA more than $1 million. The Region 7 CO stated a new competitive award
              would replace the current one.




Competition Can Result in Better Value Being Obtained

          A competitive award process will help ensure the best projects are funded at the
          least cost, eliminate the perception of preferential treatment of incumbent
          contractors, and afford potential applicants the opportunity to provide a quote for
          consideration.
          Federal procurement policy is founded on giving every responsible supplier an
          equal opportunity to meet the Government’s needs. Separate studies by the


                                               10
        RAND Corporation, the Battelle Memorial Institute, and the Office of the
        Secretary of Defense concluded that a 25- to 30-percent reduction in contract
        prices can be realized when genuine price competition exists. Other studies have
        indicated that, looking to costs alone, competition can save the Government
        between 15 and 50 percent of what it ultimately pays for goods and services, and
        has enormous benefits for potential suppliers, Government officials, and
        taxpayers. Therefore, we estimate that for the 30 orders awarded without
        competing quotes (totaling $62.5 million), EPA could have realized significant
        savings and promoted efficiency, innovation, and quality by receiving competing
        quotes. The following “Best Practice” example demonstrates how significant
        savings can be achieved by competing orders.

          ** Best Practice **    Savings Resulting from Competition
         For OAM Headquarters Order 1W-1943-NBLX, four quotes ranging from $5.4 million
         to $10.3 million were received. The two lowest quotes were below the GSA-competed
         rates that were considered to be fair and reasonable, and the awarded order
         represented an 11-percent discount from the GSA schedule. The contractor also
         proposed to hold each labor category cost constant rather than raise the rate
         3.5 percent each year as provided for in the GSA contract.




Recommendations

        We recommend that the Assistant Administrator for the Office of Administration
        and Resources Management require the Director of the Office of Acquisition
        Management to:

        2-1.   Develop and implement policies or guidelines to assure FSS awards are
               competed to the maximum extent practicable. We suggest a mechanism
               similar to EPA Order 5700.5, or Section 803 of the Fiscal 2002 Defense
               Authorization Act, to:

               • For orders over $100,000, send RFQs to as many vendors as practicable
                 in order to increase the number of bids received.

               • Set goals for competing FSS awards and monitor success against the
                 goals.

               • Address: market research; outreach efforts to encourage contractors to
                 respond to RFQs; input from COs, POs, and contractors familiar with
                 services requested; and GSA or industry officials’ assistance in locating
                 specific vendors.

        2-2.   Develop and implement a coordinated program office procurement



                                         11
               planning strategy with Senior Resource Officials to avoid rushed FSS
               awards and allow more contractors an opportunity to bid for requested
               services. This strategy should ensure that all FSS orders exceeding
               $100,000 are included in the acquisition plan, establish FSS competition
               goals, and monitor progress against those goals. This strategy should
               include:

               • Reemphasizing the importance of market research, and requiring
                 documentation of research efforts performed.

               • Enforcing cut-off dates to submit procurement requests (e.g., 60 days
                 before year end or contract expiration) or flexible time frames
                 (i.e., minimum of 60 days for most acquisitions) to avoid rushed
                 procurements.

               • Establishing minimum response time for FSS orders (e.g., 15 business
                 days for orders estimated to exceed $100,000 and 20 days for orders
                 exceeding $1 million), that provide small and non-incumbent contractors
                 ample opportunity to develop detailed quotes. If shorter time frames are
                 used, the reason why should be documented in the file.

               • Sending pre-solicitation notices or communicating with GSA schedule
                 vendors to inform them of future EPA requirements.

        2-3.   Develop, implement, and enforce policies and procedures to ensure that FSS
               sole source awards are adequately justified. The justification must include
               the POs’ and COs’ signed certification of completeness and accuracy.
               Provide a format for program offices to use in documenting sole source
               justifications.

Agency Comments

        While OARM acknowledges that competition under FSS orders could be improved,
        they generally disagreed with most of our recommendations in this section.
        Specifically, OARM does not want to implement a policy that would either require
        that at least three quotes be received or require more than three quotes be solicited.
        Additionally, OARM did not agree with our recommendations to enforce cut-off
        dates to submit procurement requests, or to establish minimum response times for
        FSS orders, and wants to maintain the inherent flexibility of the FSS program.
        OARM does not want to implement a policy that it believes would effectively
        prohibit supportive customer service. Instead, OARM believes that it can increase
        competition for FSS orders by developing policy guidance to address FSS awards,
        providing additional outreach and training for project officers regarding market
        research, and developing considerations for determining appropriate time frames for
        receiving quotations.


                                          12
          OARM agreed with our recommendation regarding sole source justifications and
          stated that under its new Quality Assurance Plans it will encourage the OAM
          operational divisions to include a quality check of this area.

          OARM’s full response is included in this report as Appendix D. In addition, ORD
          commented on this report, since some of our findings involve issues related to ORD,
          and ORD’s full response is included as Appendix E.

OIG Evaluation

          We recognize OARM’s desire for sufficient flexibility in FSS policies and
          procedures to best meet customers’ needs. However, given the findings in this
          report (30 of 39 orders awarded without receiving competing quotes, incumbent
          contractors being awarded most of the work, inadequate sole source justifications,
          etc.), we believe EPA must take additional actions to obtain the full benefits of
          competition. Of primary importance, OARM should establish competition goals for
          FSS orders (e.g., 75 percent of all FSS orders will have more than one quote), have
          an effective system for measuring success, and take corrective action when
          warranted. If the competition goals are not met, EPA will need to take other actions
          recommended above, such as lengthening the response times for quotes, which
          should allow interested parties other than incumbents, and small businesses in
          particular, a greater chance to be considered for award.




                                           13
14
                                 Chapter 3
        EPA Needs to Improve Compliance With
        Established Regulations and Procedures
         EPA awarded FSS orders without always complying with the FAR or GSA special
         ordering procedures. Specifically:

         •   SOWs were not always performance based.
         •   RFQs lacked required evaluation factors.
         •   IGCEs lacked necessary information.
         •   Quotes were inadequately evaluated.
         •   Best value and/or price reasonableness analyses were missing or inadequate.
         •   Price reductions from FSS contractors were not sought.
         •   Contractor performance was not evaluated for future selection consideration.

         These conditions were generally caused by program offices’ inadequate procurement
         planning (see Chapter 2), which limited the time to award new work or to replace an
         expiring contract. Also, COs and POs were not always aware of GSA ordering
         procedures or Agency guidelines. As a result, there was limited assurance that EPA
         received best value, and EPA potentially expended unnecessary funds.

SOWs Not Performance Based

         Only one of the 39 SOWs reviewed had the attributes of a performance-based SOW.
         Therefore, EPA has limited assurance that it is receiving the best value.

         Performance-based contracts describe requirements in terms of results required
         rather than the methods of performing the work. Such contracts use measurable
         performance standards (e.g., terms of quality, timeliness, quantity) and quality
         assurance surveillance plans; specify procedures for fee reductions or reductions to
         fixed-price contracts when services are not performed or do not meet contract
         requirements; and include performance incentives where appropriate (FAR 37.601).
         Office of Management and Budget studies have shown that performance-based
         contracts save money and improve contractor performance.

         FAR 37.1, Service Contracting, states that performance-based contracting is the
         preferred method for acquiring services, particularly as a firm-fixed-price contract or
         task order. The GSA Special Ordering Procedures state that a performance-based
         SOW is preferred. The SOW should outline work to be performed, location, period
         of performance, deliverable schedule, applicable standards, acceptance criteria, and
         special requirements (such as security clearances).




                                           15
RFQs Lacked Required Evaluation Criteria

          Only 13 of 25 OAM Headquarters RFQs contained required evaluation factors, and
          none of the 7 ORD Narragansett Lab RFQs contained them. All seven of the
          RTPPOD RFQs contained the required evaluation factors.

          GSA Ordering Procedures for Services state that the RFQ should describe the basis
          to be used to select the contractor, including whether contractors are technically
          qualified, and provide an explanation regarding the intended use of experience
          and/or past performance information. After responses have been evaluated against
          the factors identified in the request, the order should be placed with the contractor
          that represents the best value, according to FAR 8.404. The program office, in
          coordination with the CO, is responsible for developing evaluation factors. The
          SOW instructions should describe these evaluation factors, and the factors that are
          most important are to be identified, in accordance with the Contact Management
          Manual. Contractors must submit specific information to address each factor.

          The importance of evaluation criteria was noted in a February 11, 2003, GAO
          Decision (Garner Multimedia, B-291651). A solicitation did not list evaluation
          criteria, and GAO recommended that the RFQ be amended to state the desired
          content of technical proposals and criteria to be applied in evaluating them and
          selecting the winner.

IGCEs Need Improvement

          Although EPA has initiated various actions to improve the preparation of IGCEs,
          further steps are necessary.

          EPA’s Contracts Management Manual (Chapter 2.9) describes IGCEs as detailed
          Government estimates of the cost for services or supplies to be acquired and the
          rationale supporting the cost. POs must submit IGCEs to COs for all contract
          actions with a value in excess of the FAR simplified acquisition threshold
          ($100,000), and COs can require IGCEs for actions below $100,000.

          EPA’s 1994 Guide for Preparing Independent Government Cost Estimates described
          the use of IGCEs for evaluating proposals and documenting award decisions, and it
          was updated in 1998 with the Independent Government Estimate guide. The latter
          notes the IGCE should highlight similarities and differences and be used to help
          determine a fair and reasonable price. The SOW should divide requirements into
          major tasks and subtasks. Division into subtasks helps identify staffing needs and
          schedule work and costs for the desired output. It permits the estimator to assign
          hours, disciplines, and labor category levels for required tasks and subtasks. EPA’s
          fiscal 1998 Integrity Act Report designated Superfund IGCEs an Agency-level



                                            16
          weakness. A corrective action strategy included regional reviews to emphasize
          IGCEs, monitoring improvements, and providing additional IGCE training. EPA
          also developed an IGCE Estimating Handbook/Guidance Document to assist
          Superfund staff. OAM’s fiscal 2001 Assurance Letter noted the need for continued
          IGCE management attention “to ensure good cost control.”

          Despite corrective actions taken by EPA, further steps are necessary. While all
          7 RTPPOD orders included adequate IGCEs, both the ORD Narragansett orders
          which required IGCEs (2 out of 7), and 19 of 25 OAM Headquarters’ orders were
          awarded without the benefit of a complete IGCE. Specifically, these IGCEs did not
          always list labor categories and the associated rates, labor hours, or specific
          breakdowns for the individual tasks. A summary of the OAM Headquarters’
          deficiencies follows:

                                     Requirements                 Instances
                          No breakdown by tasks                       19
                          No breakdown by labor rates                  7
                          No breakdown of labor hours                  5
                          No breakdown of labor categories             6


          For example, Orders 2W-0694-NBNX ($1,139,342) and 2W-1806-NBSX
          ($497,317) lacked a documented IGCE, even through the RFQs required quotes to
          list labor categories, rates, and hours for each task and other direct costs. The CO
          for 2W-0694-NBNX acknowledged that an IGCE was not developed, because he
          believed FSS was a simplified process to place orders against GSA reasonably
          priced contracts and an IGCE would not be of any use. The PO for 2W-1806-NBSX
          stated that an IGCE would have only included estimated labor hours and the sole
          source vendor’s GSA rates; contracting personnel were unaware that cost and
          technical evaluations should explain differences in labor mix and level of effort
          estimated and proposed.

Quotes Inadequately Evaluated

          For the majority of orders reviewed, evaluations of quotes were either not
          documented adequately or at all.

          The GSA Special Ordering Procedures and Ordering and Best Value Determination
          Guidelines require that all contractor responses be evaluated against the factors
          identified in the RFQ. The PO is to submit to the CO a written evaluation of the
          technical and cost data submitted. The Contract Management Manual, paragraph
          16.13(a), states technical evaluations should document strengths, weaknesses/
          deficiencies, ratings, and scores, if appropriate. The manual’s technical evaluation
          form includes such evaluation factors as technical approach, schedule, staffing, cost


                                            17
          realism and reasonableness, and past performance against which each contractor
          should be rated. The evaluation should discuss labor mix, level of effort, and
          reasonableness of rates/costs.

          OAM’s RTPPOD evaluations were well documented. Generally, evaluation criteria
          was identified and rated, strengths and weaknesses of submissions were addressed,
          and differences between IGCEs and quotes were discussed. However, we found that
          18 of 25 OAM Headquarters FSS awards and all 7 ORD Narragansetts Lab awards
          had inadequate or no documented evaluations. Specifically, evaluation factors were
          not always established and, when established, were not used. POs evaluated the cost
          or technical data, but not both. Differences in the proposed labor hours and labor
          mix, or strengths and weaknesses of technical data, were not discussed, and quotes
          were accepted without providing any details.

          For example, OAM Headquarters Order 2W-0652-NBLX ($1,000,000) was a rushed
          sole source procurement to replace an expiring contract. The PO’s one sentence
          evaluation of the cost and technical data (submitted the next day) stated, “this quote
          is fine.” The CO acknowledged that a detailed evaluation was not prepared, best
          value was not documented, and the RFQ omitted evaluation factors. For OAM
          Headquarters Order 2W-0653-NBLX ($1,052,751), also a sole-source procurement,
          RFQ evaluation factors were not in the documented evaluation. The CO said he
          believed comparisons were made but had no documentation to support that position.

Best Value/Price Reasonableness Analyses Inadequate or Missing

          For the majority of orders reviewed, best value/price reasonableness determinations
          were not documented adequately or at all.

          COs must document the reasonableness of the proposed price of the selected
          contractors. The documented fair and reasonable price/best value determination
          could be based on such items as comparison to IGCE data and effective competition
          from sources obtained. GSA’s Ordering and Best Value Determination Guidelines
          require that COs make a best value determination before placing FSS service orders
          above $2,500. The Guidelines provide a checklist that includes the questions:

          •   Did RFQs or the SOW state the basis for selecting the contractor?
          •   Was the RFQ provided to at least three sources? If requirement was in excess of
              the schedules’ maximum order, did you provide the RFQ to additional sources
              and ask for a price reduction?
          •   Did you evaluate responses against RFQ factors and select the contractor that
              represents the best value? Indicate factors, other than price, considered in your
              best value decision (e.g., past performance).
          •   Have you documented evaluation of quotes that formed the basis for selecting
              the contractor and the rationale for trade-offs made?



                                            18
          The Guidelines further state that while GSA has determined that the hourly rate for a
          skill category awarded on a service schedule is fair and reasonable, GSA has not
          determined that the level of effort or mix of labor proposed represents the best value.
          When buying FSS services, the Agency makes the determination that the level of
          effort and mix of skills proposed represents the best value.

          All 7 RTPPOD best value/price reasonableness determinations were adequate.
          However, 14 of the 25 OAM Headquarters’ and all 7 of the ORD Narragansett best
          value or price reasonableness determinations were missing or inadequately
          documented. An ORD Narragansett Lab CO stated in a price reasonableness
          worksheet that the price was determined to be fair and reasonable by GSA and
          should not be changed. However, it should be noted that while the individual rates
          for labor categories are fixed, the labor mix (number of hours proposed for each
          labor category) is not, and should be considered.

          We noted that various OAM AMRs disclosed similar concerns. The February 28,
          2002, Region 1 AMR emphasized that price reasonableness determination is
          important, “particularly in those instances where there is little or no competition.”
          We believe that contracting and program offices must do a better job of performing
          and documenting price reasonableness/best value determinations.

          OAM recently changed the focus of the AMR process. Each division and regional
          office is now required to develop Quality Assurance Plans to assure acquisition
          problems are being identified and corrected. These Plans have various steps –
          including training/mentoring, management support, and oversight quality reviews –
          that provide a framework for ensuring quality acquisition processes. OAM will
          perform individual oversight reviews to determine how well these plans are being
          implemented.

GSA Contractor’s Price Reductions Not Sought

          COs did not seek to obtain price reductions from GSA contractors, even in those
          instances when seeking to obtain a price reduction was required.

          Above the maximum order threshold (generally $1 million), COs are required to
          seek price reductions, and voluntary reductions can be sought for orders below the
          threshold. Schedule contractors can give one buyer a discount without passing the
          discount on to the entire Federal Government. This allows the contractor to offer,
          and the Government to avail itself of, spot pricing on the commercial market.
          GSA’s ordering procedures and Best Value Determination Guidelines state
          contractors will “sharpen their pencils” for large orders to get the business, and it is a
          proven best practice for COs to seek out additional price discounts. By asking for
          price reductions, COs may be able to take advantage of competitive forces impacting
          technology changes, labor conditions, industry goals, and quantity or spot discounts.



                                             19
Several GSA OIG audit reports noted a need for FSS ordering organizations to place
greater emphasis on seeking price reductions. An August 2001 GSA OIG report
noted that GSA negotiated most favored customer pricing in only 4 of 14 actions
reviewed. Further, a January 2001 GSA OIG report disclosed COs were not always
competing task orders and renegotiating GSA ceiling labor rates at the order level,
and GSA supported a FAR change to require such an effort. The latter report
emphasized that GSA’s FSS rates are only ceiling rates, and while ordering offices
should never pay more than the schedule rate, they could pay less. GSA noted some
agencies were not aware they could request lower rates.

For the EPA transactions reviewed, we found that COs did not attempt to negotiate
reductions from contractors’ proposed rates for 16 of 25 OAM Headquarters awards,
5 of 7 RTPPOD awards, and all 7 ORD awards. Additionally, 3 of the 16
Headquarters and 1 of the 5 RTPPOD awards were in excess of the $1 million
maximum order threshold, and seeking a reduction was therefore required. The
following “Best Practice” example shows how negotiations result in EPA saving
millions of dollars.

     ** Best Practice **     Negotiations Can Result in Savings
    The evaluation panel for OAM Headquarters Order 9W-3424-NBLX ($17,456,392)
    determined the contractor’s quote was “overwhelmingly inflated” and noted areas for
    negotiation. The incumbent had performed similar services for EPA for many years.
    Based on subsequent negotiations to arrive at a fair and reasonable price, the
    incumbent voluntarily reduced its labor rates. As a result, EPA negotiated savings of
    more than $2 million.


COs generally did not seek price reductions from contractors because they:

•     Believed that since GSA already determined the contractor’s pricing was fair and
      reasonable, there was no need to seek additional price reductions.

•     Were unaware that GSA changed its regulation [FAR 8.404(b)(5)] and now
      schedule contractors can give one agency a discount without passing the
      discount on to the entire Government.

•     Were unaware that they must attempt to negotiate a price reduction for orders
      exceeding the schedule’s maximum ordering threshold (generally $1 million).

GSA maximum allowable labor rates are subject to negotiation. As shown in the
“best practice” example, where competition is achieved, EPA is more likely to
receive contractor discounts, even if an incumbent is involved. However, even if
only one quote is received, EPA should also attempt to negotiate discounts.




                                       20
Contractor’s Past Performance Not Documented

         Contractor past performance was not adequately documented. FAR 42.15 requires
         that agencies prepare an evaluation of contractor performance for each contract in
         excess of $100,000. FAR 8.404(b) notes an FSS ordering office may consider past
         performance. Although EPA uses the National Institutes of Health (NIH) Contractor
         Performance System to evaluate past performance information, OAM’s NIH liaison
         said EPA does not evaluate or record FSS vendors’ past performance. When the
         NIH system was initiated in 1999, EPA only entered past performance data at the
         contract level, not the task order level. At that time, individual FSS amounts were
         not significant ($12,000 maximum). Due to EPA’s substantial increase in FSS
         orders, the liaison believes EPA should include FSS past performance in the NIH
         system, and we agree. This information will be beneficial for awarding future task
         orders, whether by EPA or another agency.

         In May 2000, the Office of Federal Procurement Policy prepared a Best Practices
         guide to collect and use past performance information at the contract and task order
         level. Current performance assessment is a basic “best practice” for good contract
         administration and ensuring good contractor performance, and using past
         performance as a major evaluation factor in the award process is instrumental in
         making “best value” selections. The best practices for evaluating contractor
         performance are applicable to FSS orders. Each party must understand its role in
         assessing and recording contractor performance. Generally, the customer agency
         maintains current and past performance records on its contractors, and provides
         feedback to the servicing agency. The servicing agency should use this information
         when making future FSS contract awards.

Planning, Understanding of Requirements Need Improvement

         The above conditions occurred because program offices generally did not adequately
         plan their FSS orders and submit required documents in a timely manner. As a
         result, procurement requests and other required documents (e.g., IGCEs, SOWs)
         were submitted to COs for immediate awards to replace existing contracts or use
         Federal funds before year-end. Because of program “urgency,” some COs may
         expedite the process to satisfy the customer without fully complying with FAR and
         GSA procedures. We previously noted RFQs lacked evaluation criteria and had
         incomplete IGCEs. As a result, quotes were inadequately evaluated and the awards
         lacked a best value or price reasonableness analyses. Moreover, because of the
         rushed awards and lack of knowledge of FSS requirements, COs generally did not
         seek price reductions. Although the FSS process is a streamlined acquisition
         method, it is imperative that contracting and program officials follow required
         procedures and fully document actions taken.




                                          21
          Also, during interviews and in e-mail responses, many COs indicated a lack of
          understanding of certain FSS requirements for service orders. Many COs and POs
          erroneously believed that GSA had already determined that contractors’ prices were
          fair and reasonable and, therefore, a best value or price reasonableness determination
          was unnecessary. COs often erroneously believed that the GSA rates were fixed and
          non-negotiable. Although COs quoted FAR 8.4 statements during interviews or
          e-mail responses, no one mentioned or seemed aware of the GSA special ordering
          procedures that take precedence over the FAR. These special ordering procedures
          clarify FAR requirements in areas previously discussed. We believe that many COs
          were not aware of, or are confused by, these GSA procedures, and additional
          training in this area would be beneficial.

Compliance Helps Ensure Best Value Is Obtained

          To ensure that EPA obtains the best value for its FSS orders, it needs to improve its
          compliance with the FAR and GSA Special Ordering Procedures. Compliance with
          FAR and the GSA procedures can ensure that EPA saves money through the use of
          performance-based SOWs and the receipt of further price reductions. Best value
          will also be obtained by ensuring that evaluation criteria are used to evaluate quotes,
          IGCEs are prepared and compared to proposed amounts, and price reasonableness
          analyses are performed.

          During our review, we noted that the OAM RTPPOD used several task order
          checklists to keep track of each task order and ensure the required actions took place
          (see Appendix C for an example). These checklists included whether a statement of
          work, IGCE, market research information, and technical evaluation were included.
          We believe the use of checklists was helpful, and that checklists similar to those
          used by RTPPOD should be used by all entities that issue FSS orders.

Recommendations

          Recommendation 2-2 of this report addresses improvements in procurement
          planning. Additionally, we recommend that the Assistant Administrator for the
          Office of Administration and Resources Management require the Director of the
          Office of Acquisition Management to:

          3-1.   Provide additional CO and PO training to emphasize FAR requirements and
                 GSA special ordering procedures. Emphasis should include:

                 (a) Preparing performance based SOWs and complete IGCEs.

                 (b) Negotiating price reductions whenever practicable (e.g., for orders
                     greater than $2,500).




                                            22
                (c) Documenting evaluations of quotes and best value or price
                    reasonableness determinations (especially when one quote is received).

                (d) Using some type of forum (i.e., meetings, memoranda, OAM Hot Tips)
                    to communicate the most recent FSS award requirements.

                (e) Providing samples of adequately prepared documents (SOWs, IGCEs,
                    quote evaluations, best value, and price reasonable analyses) to assist
                    COs and POs in preparing or approving such documents.

         3-2.   Periodically provide Senior Resource Officials, COs, and POs with
                information on actions taken in response to systemic or significant problems,
                and best practices identified from prior AMRs and current oversight reviews
                of individual quality assurance plan implementation.

         3-3.   Develop and distribute checklists for managing the processing of FSS task
                orders that ensure all FAR requirements and GSA special ordering
                procedures are followed.

         3-4.   Enter contractor’s past performance appraisals for FSS orders over $100,000
                in the NIH system.

Agency Comments and OIG Evaluation

         OARM agreed with the findings and recommendations and included planned
         corrective actions. ORD also generally agreed with the findings in the report that
         are specific to Narragansett laboratory, and stated that several corrective actions
         have already been taken at Narragansett (e.g., CO is now requesting price
         reductions). Both OARM and ORD also provided additional information, and we
         clarified the report as needed. OARM’s full response is included in this report as
         Appendix D, while ORD’s full response is included as Appendix E.




                                           23
24
                                 Chapter 4
         EPA Needs to Improve Recording of Data
          FSS information generated by EPA’s databases was often incomplete, inaccurate,
          and unreliable. Two primary systems are used by EPA to record FSS data:

          •   Integrated Contract Management System (ICMS)
          •   Small Purchase Electronic Data Interchange System (SPEDI)

          However, among other things, these systems cannot report total annual FSS
          obligation and award amounts, or the total number of transactions. EPA has not
          developed or implemented a system that would allow the consistent recording,
          accumulation, and reporting of FSS award data. Also, the data entered into these
          systems were not reconciled to individual files and the Integrated Financial
          Management System. Unreliable procurement data affects information submitted to
          Congress and other stakeholders, and EPA itself did not have sufficient information
          to analyze workloads and support budget requests.

Total FSS Purchases Unavailable

          During our audit, we requested a complete universe of EPA’s FSS purchases.
          However, we were unsuccessful in obtaining this data because EPA’s FSS
          transactions are recorded in several different databases and systems, which are
          largely not integrated with each other. Most of the transactions processed by OAM
          were recorded in SPEDI, which was designed to record FSS data. However, some
          offices recently elected to instead record FSS transactions in ICMS, and several
          program and regional offices do not have access to SPEDI. For example, the OAM
          RTPPOD recorded its FSS transactions in ICMS. Additionally, program offices and
          regions recorded some procurements in regional databases or logs. Furthermore,
          OAM officials advised us that many program offices made FSS awards through
          interagency agreements recorded in yet another system within the EPA Grants
          Office.

          At our request, OAM’s liaison contacted EPA’s Office of the Chief Financial Officer
          and several program offices to obtain FSS awards not recorded in ICMS or SPEDI.
          OAM’s discussions with six IFMS and Financial Data Warehouse experts disclosed
          various problems, including incomplete data and a lack of a uniform identifier for
          FSS transactions.

          We attempted to obtain FSS universe data from four program offices: ORD, Office
          of Solid Waste and Emergency Response, Office of Air and Radiation, and Office of
          Enforcement and Compliance Assurance. We encountered various difficulties in
          obtaining this information, as summarized below.


                                           25
          •   ORD officials had to perform a manual data call of all laboratories, since ORD’s
              Management Information System did not include simplified acquisition data at
              remote sites. Eventually, ORD officials identified two FSS awards at its
              Narragansett laboratory, which we reviewed, in addition to five other awards (the
              seven Narragansett awards reviewed are listed in Appendix A).

          •   Office of Solid Waste and Emergency Response personnel could not provide
              FSS information from their purchasing agents, and data had to be requested from
              all offices. An interagency agreement report could not separate FSS awards
              from other awards.

          •   The Office of Air and Radiation could not provide the requested data, and had to
              solicit the information from each office. Most offices provided negative
              responses, but one program found five GSA interagency agreements with related
              orders.

          •   The Office of Enforcement and Compliance Assurance provided two awards that
              involved interagency agreements with GSA, one of which was actually an OAM-
              awarded FSS order.

          Because of the lack of a reliable information system, there was no way to know
          whether the information provided by the program offices is accurate and complete.

SPEDI Has Limitations and Deficiencies

          Many OAM and regional COs stated that SPEDI has many limitations and is
          difficult to use. Specifically, SPEDI is limited to certain characters when writing the
          SOW. As a result, some COs used a typewriter rather than SPEDI to prepare
          documents. Also, SPEDI does not have an extensive clause list. An RTPPOD
          program analyst stated that SPEDI was not designed to enter conflict of interest and
          other unique clauses. OAM officials acknowledge that SPEDI is obsolete and not
          designed to capture simplified acquisition data for awards greater than $25,000. The
          current simplified acquisition threshold is $100,000. Furthermore, SPEDI is not
          compatible with the hardware configurations of some purchasing offices (notably
          ORD labs) and these offices are forced to enter this data into other systems.

          Also, the amounts recorded in SPEDI were sometimes unreliable because of coding
          errors and other input errors. Our review of 25 OAM headquarters awards disclosed
          three instances where COs did not enter FSS obligations into SPEDI. In one case, an
          additional obligation for new tasks totaling $1 million was not entered into SPEDI.
          These errors were not discovered or corrected because OAM does not reconcile
          entered financial data to individual files and the Integrated Financial Management
          System.




                                            26
          OAM’s October 18, 1998, memoranda (Use of Automated Systems – ICMS and
          SPEDI) noted significant missing data, indicating that both systems either were not
          being used properly or were not being used for some contract and simplified
          acquisition actions. OAM’s Director stated that all OAM managers should “take
          personal responsibility for ensuring that these systems are used and used properly.”
          This Director emphasized the importance of collecting this data, since “it forms the
          basis for all our reports to Congress and other stakeholders and has a direct impact
          on our budget and full time equivalent allocation. Remember that the integrity of
          our data as an Agency is only as good as your individual diligence and attention to
          detail.”

Maintaining Reliable Data Important

          EPA’s use of the FSS has significantly increased in recent years. However, EPA’s
          systems have not adapted to accommodate the increased usage. FSS information is
          recorded in numerous, nonintegrated systems that produce unreliable data.
          However, reliability of acquisition data is critical to accurately reporting to Congress
          and other stakeholders, and plays a key role in the budget process and appropriation
          of funds. Also, EPA itself does not have all information necessary to make informed
          decisions to improve short- and long-term program performance and meet its
          environmental mission and goals. Therefore, EPA should vigorously pursue
          periodic system upgrades, additional user training, and replacement of outdated
          systems to accurately record and report all FSS award data.

Recommendations

          We recommend that the Assistant Administrator for the Office of Administration
          and Resources Management require the Director of the Office of Acquisition
          Management to:

          4-1.   Convene a high level workgroup of OARM, OAM, and Program Office
                 procurement and information technology personnel to review the databases
                 used to record FSS information, and develop a plan for bringing a
                 consolidated system online that permits all users to accurately and
                 completely record information for FSS transactions.

          4-2.   Provide training on FSS data entry, and provide COs and program office
                 personnel with user guides, checklists, and best practice examples to
                 re-emphasize the importance of complete and reliable FSS data entry.

          4-3.   Periodically reconcile FSS data to the Integrated Financial Management
                 System and source documents.




                                             27
Agency Comments and OIG Evaluation

         OARM agreed with the findings and recommendations and included planned
         corrective action. In fact, OARM stated that it strongly supports our
         Recommendation 4-1, and OAM has been actively soliciting high level Agency
         support for an improved, consolidated procurement system. The full response from
         OARM can be found as Appendix D.




                                         28
                                                                                                 Appendix A

                             Sampled FSS Procurements


                                        OAM Headquarters

    Award                                      Sole
     Date       Contract #         Amount     Source                   Tasks                     Incumbent


 1 01/18/02   GS-35F-4863G         $49,853      YES        Continuing Development of               YES
              2W-0195-NBLX                                 Grants & Fellowship System

 2 12/11/01   GS-23F-0115K       $1,000,000     YES        Transportation Efficiency Brand,        YES
              2W-0652-NBLX                                 Market Research & Marketing Support

 3 11/08/01   GS23F-9751H         $221,434    3 Bidders    Develop SES Candidate                   N/A
              2W-0265-YBSA                                 Development program

 4 10/30/01   GS23F-8151H         $425,000    3 Bidders    Support SES Candidate                   N/A
              2W-0255-NBSX                                 Development Program

 5 12/17/01   GS-10F-0070J       $1,052,751     YES        Energy Performance Indices              YES
              2W-0653-NBLX                                 & Small Business Support

 6 03/16/01   GS23F-0292K         $774,485    YES (1)      Superfund Website & OERR                YES
              1W-0695-NBLX                                 Development & Maintenance

 7 09/17/01   GS-23F-0292K         $85,094    YES (1)      Internet Technology to bring            YES
              1W-1822-NBSX                                 Superfund Spatial data to EPA

 8 11/28/00   GS-23F-0292K         $35,958    YES (1)      Website Design/Maintenance              YES
              1W-2245-NBLX                                 for WIN supporting EMPACT

 9 08/08/01   GS-10F-0221J        $280,307    YES (1)      SPIM & SCAP Support                     YES
              1W-1266-NBLX

10 09/24/01   GS-10F-0221J        $698,523    YES (1)      Support EPA's Cleanup &                 YES
              1W-1561-TBLX                                 reuse of contaminated properties

11 09/28/01   GS-35F-0105K       $5,378,252   4 Bidders    System Integration & Payroll            N/A
              1W-1943-NBLX                                 Support for EPA's new Payroll,
                                                           time and labor base

12 09/27/01   GS-23F-8127H        $301,323      YES        Audit of WCF for FY 00-01               YES
              1W-1547-NBLX

13 09/28/99   GS00K95AFS0004    $17,456,392   YES (1)      Support to develop/enhance              YES
              9W-3424-NBLX                                 software interface to IFMS

14 10/31/00   GS-35F-4797H        $992,307      YES        Enhancements to IRMS in                 YES




                                                      29
                                                   OAM Headquarters

    Award                                                 Sole
     Date          Contract #              Amount        Source                    Tasks                    Incumbent
                1W-2242-NBLX                                          OPPTS

15 09/28/99     GS00K95AFS0004          $33,593,724      YES (1)      Support services for IFMS               YES
                9W-3428-NBLX                                          software

16 04/03/02     GS-23F-9755H               $497,014      YES (1)      SPEDI Replacement                       N/A
                2W-2347-NBLX

17 09/17/01     GS-35F-4863G                   $66,070     YES        Development of Grants and               YES
                1W-1926-NBLX                                          Fellowship System (GFS)

18 07/31/01     GS-10F-0274L             $1,997,576        YES        Support services-EPA's                  YES
                1W-1307-YASX                                          Energy Star program

19 05/03/01     GS-IOF-0124J               $300,643        YES        Support of Transportation Vehicle       YES
                1W-2489-NBLX                                          Miles Traveled/Greenhouse Gas
                                                                      Inventors & Assessment of
                                                                      Transportation Strategies

20 04/03/01     GS-10F-0124J               $218,166        YES        Support for Freight                     YES
                1W-2486-NBLX                                          Management Initiative

21 09/26/01     GS-35F-0430K               $351,080        YES        IT and infrastructure                   YES
                1W-1981-YBSW                                          on-site support

22 02/27/02     GS-23F-9718H             $1,079,000      6 Bidders    Support EPA's Strategic Planning        N/A
                2W-1606-NBLX                                          Service

23 11/26/01     GS-35F-4717G               $497,317        YES        Office of Pesticide Program             YES
                2W-1806-NBSX                                          Information Network (OPPIN)

24 03/11/02     GS00F-0007M              $1,139,342      5 Bidders    Strategic Market Planning, Research     N/A
                2W-0694-NBNX                                          Communications, Mega Task B

25 05/08/02     GS10F-02245                $177,000      YES (1)      Economic Analysis & Training            YES
                2W-0421-NBLX                                          in support of Enforcement actions

      TOTAL                             $68,668,611

 (1) Request for 3 or more bids - 1 response




                                                                 30
                                                        OAM RTPPOD

   Award                                                   Sole
    Date          Contract #              Amount          Source                  Tasks                     Incumbent

1 9/17/02      GS-10F-0030K               $135,221        YES (1)    Air Program Workshop                     YES

2 8/15/02      GS-10F-0181K               $537,471       2 Bidders   PM 2.5 Air Quality Forecasting           YES
               TO-1316                                               for USA Today Cities

3 5/11/01      GS-10F-0181K               $149,945        YES (1)    Improvements to AIR NOW                  YES
               TO-1302                                               Public Awareness Program

4 2/1/02       GS-10F-0181K             $1,449,134        YES (1)    Operating, Maintaining & Enhancing       YES
               TO 1306                                               AIR NOW Data Collection Center &
                                                                     Air Quality Forecasting System

5 9/25/01      GS-10F-0181K                   $69,467    2 Bidders   Enhancing AQI Reporting -                YES
               TO 1303                                               Particulate Matter Forecasting Study

6 4/19/01      GS-35F-0667J               $131,073        YES (1)    Enhancements to Maps for OAR             YES
               TO 1301

7 3/7/02       GS-35F-0667J               $822,814       2 Bidders   Enhancements to MAPS for OAR             YES
               TO 1310

  TOTAL                                 $3,295,125

(1) Request for 3 or more bids - 1 response




                                                               31
                                 ORD - Narragansett Lab

    Award                                 Sole
     Date        Contract #   Amount     Source                   Tasks            Incumbent

1   10/20/99   0N-0050-NALX     $7,096     YES        Voicemail Maintenance-FY00     YES

2 ‘10/20/99    0N-0051-NDLX    $24,549     YES        Telephone Maintenance-FY00     YES

3 10/3/00      1N-0025-NDLX    $33,944     YES        Telephone/Voicemail            YES
                                                      Maintenance-FY01

4 10/18/01     2B-6043-NBLX    $24,677     YES        Telephone/Voicemail            YES
                                                      Maintenance-FY02

5 9/30/02      2N-0103-NBLX    $27,213     YES        Telephone/Voicemail            YES
                                                      Maintenance-FY03

6 12/4/00      1N-0032-YBWW   $105,554   3 Bidders    Library Service-FY01           YES

7 11/28/01     2N-0015-YBWW   $110,425     YES        Library Service-FY02           YES

    Total                     $333,458




                                                 32
                                                                                       Appendix B

                   Details on Scope and Methodology
At the start of this assignment, we focused on such alternative contracting vehicles as Government-
Wide Agency Contracts, Multiple Award Contracts, and FSS awards. Based on preliminary results,
we concentrated on FSS orders because we found several areas of concern.

We reviewed management controls and procedures specifically related to our objectives, as well as
procurement requirements in the FAR, EPA Acquisition Regulations, EPA Contract Management
Manual, task order provisions, and GSA special ordering procedures. We did not review internal
controls associated with inputting and processing information in EPA’s tracking systems or verify
the accuracy of this data.

We conducted our fieldwork from March to December 2002 at EPA’s OAM Headquarters in
Washington, DC; various Headquarters program offices; OAM RTPPOD; and ORD’s Narragansett
Laboratory. We interviewed COs and POs at these locations. Additionally, we interviewed
contracting personnel in Regions 1, 2, and 7.

To determine whether EPA was obtaining adequate competition for FSS orders, we analyzed the:
(a) extent of market research using GSA Advantage or other sources; (b) number of contractors
requested to submit quotes, and rationales for their selection; (c) time allotted to submit quotes;
(d) number of quotes received and reasons for non-submittal; (e) sole source justifications; and
(f) awards made to incumbent contractors.

To determine whether the Agency followed established policies, procedures, and regulations in
awarding FSS orders, we reviewed: (a) SOWs to determine whether they were performance based
and contained a clear description of the tasks to be performed; (b) factors/criteria used to evaluate
the quotes and whether the vendors were apprized of such criteria; (c) IGCEs to determine whether
they included labor categories/rates and hours broken down by tasks; (d) PO’s evaluations and
CO’s best value and price reasonableness analyses; and (e) attempts to seek price reductions from
GSA ceiling prices.

To determine whether EPA systems provided adequate, reliable, and timely FSS data we:
(a) reviewed EPA tracking systems in an attempt to determine the FSS universe; (b) interviewed
various OAM and program officials to determine reasons for using different systems to record
obligations; (c) reviewed internal management review findings and other correspondence; and
(d) compared obligation and other reported data to award files.

Sample Selection
As discussed in Chapter 4, there were problems with EPA’s systems to record FSS data. To develop
a sampling methodology, we attempted to obtain EPA’s FSS transactions for the last two fiscal
years. OAM personnel advised us to review ICMS and SPEDI tracking reports. After reviewing



                                                 33
these reports, interviewing OAM officials, and reading OAM’s management reviews, it became
clear that we could not obtain a complete and accurate universe of all FSS awards.

Since it was not feasible to use a statistical or random sampling methodology, we used judgmental
sampling and reviewed large obligated dollar amounts (more than $30,000) for the initial award or
subsequent modifications at OAM Headquarters and OAM RTPPOD, and both above and below
$30,000 at ORD Narragansett Laboratory (due to the limited number above that amount). We
selected a sample representing various program offices, different vendors, and different types of
services. We reviewed 39 FSS orders for fiscal 2000 through 2002 obligations: 25 from OAM
Headquarters, 7 from OAM RTPPOD, and 7 from the ORD Narragansett Laboratory.

Prior Audit Coverage
The following GAO, Department of Defense, and GSA audits and Congressional testimony include
findings and concerns relating to multiple award contracts and FSS orders. These reports generally
discuss weaknesses pertaining to obtaining competition.

                                        Prior Audit Coverage

 GAO Report (GAO/NSIAD-98-215), September 30, 1998: Multiple-award Contracting at Six Federal
 Organizations

 GAO Report (GAO/NSIAD-00-56), March 20, 2000: Few Competing Proposals for Large DOD Information
 Technology Orders

 GAO Report (GAO-01-125), November 29, 2000: Not Following Procedures Undermines Best Pricing
 Under GSA’s Schedule

 GAO Testimony (GAO-02-560T), April 11, 2002: Roles and Responsibilities of the Federal Supply Service
 and Federal Technology Service

 GAO Testimony (GAO-02-499T), March 7, 2002: Taking a Strategic Approach to Improving Service
 Acquisitions

 GAO Testimony (GAO-02-469T), February 27, 2002: DOD Faces Challenges in Implementing Best
 Practices (pages 18-20)

 GSA OIG Report, August 24, 2001: MAS Pricing Practices: Is FSS Observing Regulatory Provisions
 Regarding Pricing?

 GSA OIG Report (A0008971F131V0l002), January 9, 2001: Limited Audit of Federal Supply Services’
 Contracting for Services

 Department of Defense OIG Report (D-2001-129), May 30, 2001: Contracting Offices Determinations of
 Price Reasonableness When Cost or Pricing Data Were Not Obtained




                                                  34
                                                                                                       Appendix C

                                                      TASK ORDER CHECKLIST

DCN NUMBER                                                       TASK ORDER NUMBER/MOD NUMBER

PROGRAM OFFICE

PROJECT OFFICER/ORIGINATOR:                                      PHONE NUMBER:

CONTRACTOR                                                       PHONE NUMBER

ADDRESS                                                          AMOUNT

TITLE OF ACQUISITION                                             PERIOD OF PERFORMANCE

TAB                    DOCUMENT                       A   N/A   TAB                    DOCUMENT                A    N/A
NO.                                                   T         NO.                                            T
                                                      T                                                        T

 1     PURCHASE REQUEST                                          10   RFP
       (w/appropriate approvals, i.e., SIRMO and
       Facilities)

 2     STATEMENT OF WORK                                         11   CORRESPONDENCE

 3     IGCE                                                      12   TECHNICAL EVALUATION

 4     (As appropriate)                                          13   UNSUCCESSFUL PROPOSAL
       4a. SOLE SOURCE DETERMINATION (FAR
       Part 6)
       4b. AAS/PIN
       4c. COI
       4d. CBI
       References for 4b,45c, and 4d:
       PPN 99-03, CMM Chap. 2, FAR Part 37 (37.204,
       37.205, & 37.504), and GWACS and Other
       Alternative Contractual Vehicles

 5     Market Research Information                               14   SUCCESSFUL PROPOSAL
       (If Applicable)

 6     WAGE DETERMINATION/D&F for WAIVER                         15   TASK ORDER FILE DOCUMENTATION,
       OF WAGE DETERMINATION                                          ABSTRACT, PRICE REASONABLENESS
                                                                      WORKSHEET AND ANY SUPPORTING
                                                                      DOCUMENTATION

 7     DETERMINATIONS & FINDINGS                                 16   SOURCE SELECTION MEMO/BEST VALUE
                                                                      DETERMINATION

 8     1900-65                                                   17   TASK ORDER/MOD

 9     Questionnaire

      ADVISORY & ASSISTANCE SERVICES APPROVAL:
      In accordance with Agency policy, approval is required for all task orders through
      $4,999,999 involving services designated as advisory and assistance services as defined
      in Chapter 2 of the Contracts Management Manual. In accordance with FAR Part 37.204 and
      37.205 a determination has been made regarding the availability of sufficient personnel.


      Contracting Officer                                                       Date


      Manager, OAR Service Center                                               Date


      Director, RTP Procurement Operations Division                             Date




                                                                35
36
                                                                                       Appendix D



                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                         WASHINGTON, D.C. 20460




                                                                                    OFFICE OF
                                                                                 ADMINISTRATION
                                                                                  AND RESOURCES
                                             August 29, 2003                      MANAGEMENT



MEMORANDUM

SUBJECT:              Draft Audit Report:
                      EPA Can Improve Use of Federal Supply Schedules When Procuring
                      Services
                      Project No. 2002-000589

FROM:                 Morris X. Winn /s/ David J. O’Connor for
                      Assistant Administrator

TO:                   Robert Mitchell
                      Director for Contracts Audit
                      Office of Inspector General


       Thank you for the opportunity to submit our comments on the draft report entitled “EPA
Can Improve Use of Federal Supply Schedules When Procuring Services.” Detailed comments on
the report are provided below. We are in general agreement with the draft report. However, we
take exception to several statements regarding perceived lack of competition. Our responses are
discussed by subject in the order of appearance in the report.

COMMENTS ON SPECIFIC FINDINGS

Chapter 2, Pages 3 and 4. Finding: Lack of Competition

The OIG implies that the Agency did not follow FAR ordering procedures with regard to
competing Federal Supply Schedule (FSS) awards. We do not agree with this assertion. For
example, for Office of Acquisition Management (OAM) Headquarters, nine (9) orders are listed in
Appendix A as “sole source” with the footnote that three (3) or more bids were solicited but only
one (1) quote was received. According to the FAR, sole source acquisition means a contract for
the purchase of supplies or services that is entered into or proposed to be entered into by an agency



                                                 37
after soliciting and negotiating with only one source. Although we only received one quote, we
solicited quotes from three or more vendors. These orders were issued in accordance with FAR
ordering procedures, and are not sole source awards. While circumstances may have prevented
other offerors from proposing, every effort was made to seek competition.

If these nine (9) actions, totaling $53,598,497, are added to the $8,243,028 the OIG identified as
competitive, the total competitively awarded dollars would then equal $61,841,525 or 90% of the
total dollars reviewed at Headquarters.

Chapter 2, Pages 5, 6. Finding: Inadequate Justification of Sole Source Orders

We agree with the OIG finding that the sole source justification for order 2W-0653-NBLX,
awarded as a bridge to an existing contract, was deficient. However, corrective action has been
taken in award of a follow-on contract, which was an FSS competitive multiple award.

In general, we concur that the documentation for sole source awards, including certifications by
the Project Officers (POs) and Contracting Officers (COs), could be improved. OAM is in the
process of developing procurement policy on Alternative Contracting Vehicles, including GSA
Schedules, and will emphasize the importance of proper file documentation to support a sole
source determination. We expect our guidance to be issued in the first half of FY 2004.

Chapter 2, Page 6. Finding: Inadequate Acquisition Planning and Rushed Procurement

We agree that many FSS awards over $100K are not included in five-year acquisition plans or in
EPA’s acquisition forecast. In our acquisition strategy and customer service meetings with our
programs, we continue to encourage program offices to include all requirements over $100K in
their plans. We cannot always determine early in the acquisition process whether the requirement
will result in an FSS award and, thus, may not be able to identify it as such in the acquisition
forecast. We will make every effort to obtain this information and include it in the forecast.

Chapter 2, Page 8. Finding: Limited Time to Respond to RFPs

The average response time for Headquarter’s FSS solicitations listed in the report was nine (9)
business days, or essentially two (2) weeks. We believe this is adequate response time for small,
non-complex actions. Contractor response time is typically determined by the estimated value,
complexity of the statement of work, and any other mitigating factors, including the extent of
market research. We believe that imposing a minimum fifteen (15) business day response time for
actions between $101,000 and $1 million is counter to streamlining initiatives, jeopardizes our
ability to provide fast and efficient customer service, and limits contracting officer flexibility.

RECOMMENDATIONS

The OIG recommends that the Assistant Administrator for the Office of Administration and
Resources Management require the Director of the Office of Acquisition Management to:



                                                38
RECOMMENDATION 2-1

OIG: Develop and implement policies or guidelines to assure FSS awards are competed to the
maximum extent practicable. We suggest a mechanism similar to EPA Order 5700.5, or Section
803 of the Fiscal 2002 Defense Authorization Act, to:

       • For orders over $100,000, send RFPs to as many vendors as practicable in order to
       increase the number of bids received.

       • Set goals for competing FSS awards and monitor success against the goals, and,

       • Address market research; outreach efforts to encourage contractors to respond to RFPs;
       input from COs, POs and contractors familiar with services requested; and GSA or industry
       officials’ assistance in locating specific vendors.

OARM’s Response: We agree that OAM should develop and implement policy guidance to
address FSS awards and encourage increased competition in the process. However, we do not
believe the samples suggested, EPA Order 5700.5, or Section 803 of the Fiscal 2002 Defense
Authorization Act, are appropriate, as they exceed the federal requirements related to FSS, and
may act to undermine the benefits of the program. OAM will prepare Contract Management
Manual (CMM) coverage of the FSS program to address both program and OAM responsibilities,
and to ensure compliance with FSS special ordering procedures. We expect the CMM coverage to
become effective in FY 2004.

As part of OAM’s oversight function, operational compliance with the regulations governing FSS
awards is regularly reviewed. It is through this mechanism that we monitor our success in this
area.

We believe that additional outreach and training for project officers is needed on conducting
market research, and OAM is focusing on this area in classes taught by this office. In many cases,
program personnel have impacted competition by their conduct of market research, prior to a
procurement request ever being received in OAM. Nonetheless, except in isolated instances, our
contracting officers compete FSS awards to the maximum extent practicable.

Recommendation 2-2

OIG: Develop and implement a coordinated program office procurement planning strategy with
Senior Resource Officials to avoid rushed FSS awards and allow more contractors an opportunity
to bid for requested services. This strategy should ensure that all FSS orders exceeding $100,000
are included in the acquisition plan, establish FSS competition goals, and monitor progress against
those goals. This strategy should include:

       • Re-emphasizing the importance of market research, and requiring documentation of
       research efforts performed.



                                                39
       • Enforcing cut-off dates to submit procurement requests (e.g., 60 days before year end or
       contract expiration) or flexible time frames (i.e., minimum of 60 days for most
       acquisitions) to avoid rushed procurements.

       • Establishing minimum response time for FSS orders (e.g., 15 business days for orders
       estimated to exceed $100,000 and 20 days for orders exceeding $1 million), that provide
       small and non-incumbent contractors ample opportunity to develop detailed proposals. If
       shorter time frames are used, the reason why should be documented in the file.

       • Sending pre-solicitation notices or communicating with GSA schedule vendors to inform
       them of future EPA requirements.

OARM’s Response: We agree that OAM should increase efforts to develop a coordinated
planning program, but we disagree with many of the suggested elements of such a program. For
example:

We currently discuss acquisition time frames with our programs during acquisition strategy and
customer service outreach meetings. Based on the OIG finding, at these meetings we will also
emphasize the importance of, and the appropriate methods of, conducting market research and
preparing the related documentation. In addition, the Director and Deputy Director, Office of
Acquisition Management, will stress the importance of procurement planning, to include FSS
orders during their customer service visits with Senior Resource Officials.

OAM has established optimum time frames for submission or procurement requests, and has
mandatory due dates for end-of-fiscal-year requests. Nonetheless, we always seek to provide
procurement services to meet the Agency mission, regardless of whether cut off dates are met. We
recognize the importance of proper procurement planning, and certainly stress the necessity of
procurement planning to our program counterparts. But despite proper planning, unforeseen needs
will arise or other circumstances will require quick procurements, and OAM does not believe we
should implement policy which would effectively prohibit supportive customer service.

We believe that an appropriate response time for receipt of quotes under an FSS procurement is
variable and that minimums should not be mandated. Small, non-complex actions require simple
statements of work and permit quick quoting on the part of the contractor. By design, the ease and
speed of solicitation and award is an element of the FSS program, and is not necessarily an
impediment to competition. Contractor response time is typically determined by the estimated
value, complexity of the statement of work, and many other relevant factors. For this reason, we
support retaining the time flexibilities inherent in the system. Nonetheless, our forthcoming
guidance will address considerations for determining appropriate time frames for receipt of
quotations.

Recommendation 2-3

OIG: Develop, implement, and enforce policies and procedures to ensure that FSS sole source
awards are adequately justified. The justification must include the PO’s and CO’s signed


                                                40
certification of completeness and accuracy. Provide a format for program offices to use in
documenting sole source justifications.

OARM’s Response: We concur with this recommendation. Samples of documentation for sole
source justifications will be provided to program offices with a reminder to the POs and COs of
the requirement for a signed justification for sole source awards. Under our new quality assurance
oversight program, we are encouraging the OAM operational divisions to include a quality check
in their Quality Assurance Plans (QAP). When an oversight review reveals that FSS orders are not
receiving adequate review at the Division level, recommendations are made for changes to the
QAP. This process serves to monitor FSS awards in general, and to ensure that sole source
justifications are prepared in accordance with OAM policy.

Recommendation 3-1

OIG: Provide additional CO and PO training to emphasize FAR requirements and GSA special
ordering procedures. Emphasis should include:

       (a) Preparing performance based SOWs and complete IGCEs.

       (b) Negotiating price reductions whenever practicable (e.g., for orders greater than $2,500).

       (c) Documenting evaluations of bids and best value or price reasonableness determinations
       (especially when one bid is received).

       (d) Using some type of forum (i.e., meetings, memoranda, OAM Hot Tips) to communicate
       the most recent FSS award requirements.

       (e) Providing samples of adequately prepared documents (SOWs, IGCEs, proposal
       evaluations, best value, and price reasonable analyses) to assist COs and POs in preparing
       or approving such documents.

OARM’s Response: OAM agrees with the recommendation, and will provide training in
conjunction with the release of policy guidance on FSS Orders. This training is expected to begin
in the second quarter of FY 2004, and will emphasize items a - e of the recommendation. Over the
last few years, OAM has provided training in a number of venues on Federal Supply Schedule
(FSS) contracts offered by GSA, as well specific training on Performance-Based Service
Acquisitions (PBSA), and Preparation of IGCEs. The OAM sponsored Contracting Officer’s
Representative (COR) Training course, which is required for program personnel prior to
appointment as a COR for the first time, addresses FSS in Chapter 1 and PBSA in Chapter 4.
Every 3 years, prior to expiration of the COR appointment, CORs are required to be recertified by
taking the COR Recertification Training Course offered by OAM. In this course, Chapters 5 and 4
address the topics of FSS and PBSA, respectively.

OAM has provided mini-training sessions for OAM personnel on various related topics including:
Alternative Contract Vehicles including FSS, technical evaluations, best value, IGCEs and PBSA.


                                                41
OAM’s policy Web Page, located at http://intranet.epa.gov/oamintra/policy/index.htm, has links to
acquisition guidance on GWACS and Other Alternative Contract Vehicles. At the FY 2001 and
2002 Acquisition Conferences, OAM provided training on Alternative Contract Vehicles, PBSA,
Best Value, Technical Evaluation Criteria and Fixed Price Statements of Work.

OAM will continue to provide training to its staff as well as program personnel in the form of
COR Training, COR Recertification, mini-training sessions, specialized topic presentations for
program offices, as well as other various venues deemed appropriate. OAM again plans to offer
training on Alternative Contract Vehicles at the Acquisition Conference to be held in November,
2003.

Recommendation 3-2

OIG: Periodically provide Senior Resource Officials, COs, and POs with information on
actions taken in response to systemic or significant problems, and best practices identified from
prior AMRs and current oversight reviews of individual quality assurance plan implementation.

OARM’s Response: It has always been our practice to identify best practices and deficiencies
following every Quality Assurance Review (which recently replaced AMRs). Corrective action is
required for deficiencies noted. Best practices are shared with others who could potentially
benefit. Our Hot Tips publication is broadly distributed to an audience which includes the SRO,
CO, and PO communities, and we will use this forum for articles on best practices in using FSS.

Recommendation 3-3

OIG: Develop and distribute checklists for managing the processing of FSS task orders that ensure
all FAR requirements and GSA special ordering procedures are followed.

OARM’s Response: We concur with this recommendation. OAM will make distribution of the
sample checklist developed by the RTP Procurement Operations Division (Appendix C to the
Draft Audit Report). We plan to incorporate the checklist in the formal CMM coverage to be
issued in the first half of FY 2004.

Recommendation 3-4

OIG: Enter contractor’s past performance appraisals for FSS orders over $100,000 in the NIH
system.

OARM’s Response: We concur with this recommendation. Although the original government-
wide use of the National Institutes of Health (NIH) past performance system envisioned that GSA
would be responsible for recording performance of schedule contractors at a contract level, in
practice, this has proved impractical. Consequently, OAM plans to amend the Environmental
Protection Agency Regulation (EPAAR) to provide for the evaluation of FSS orders over $100,000
in the NIH Contractor Performance System. The formal rule-making process will begin the first
quarter of FY 2004.


                                                 42
Recommendation 4-1

OIG: Convene a high level workgroup of OARM, OAM, and Program Office procurement and
information technology personnel to review the databases used to record FSS information, and
develop a plan for bringing a consolidated system online that permits all users to accurately and
completely record information for FSS transactions.

OARM’s Response: We strongly support the IG’s recommendation, and OAM has been actively
soliciting high level Agency support for an improved, consolidated procurement system. We
would appreciate any support from the OIG in this endeavor, as a new procurement system is
essential to the effective operation of the Agency as a whole, not just OAM.

We recognize that reliable data is essential to the effective management of our procurement
program, and to our ability to respond to stakeholders. Every effort is made to ensure the integrity
of the data in our automated procurement systems. While the Agency continues to be challenged
by use of procurement systems which are outdated, our primary system, the Integrated Contracts
Management System (ICMS), does have the capability to record and report FSS information to the
Federal Procurement Data System (FPDS). Current OAM policy is in place requiring the use of
ICMS for limited alternative contracting vehicles and, based upon the IG’s findings, we will
investigate the feasibility of expanding existing coverage to require ICMS entry for all FSS orders.


Recommendation 4-2

OIG: Provide training on FSS data entry, and provide COs and program office personnel with user
guides, checklists, and best practice examples to re-emphasize the importance of complete and
reliable FSS data entry.

OARM’s Response: OAM recognizes the integrity of our data is only as good as the attention to
detail of data entry. We currently provide training, which includes data input, on our automated
procurement systems. Furthermore, we frequently validate our system data to ensure accuracy.
Our policy will address the importance of proper data entry, and a single collection point in ICMS
should serve to improve the accuracy.

Recommendation 4-3

OIG: Periodically reconcile FSS data to the Integrated Financial Management System and source
documents.

OARM’s Response: OAM conducts periodic exercises to ensure that ICMS data is reconciled to
IFMS data. Our future exercises will emphasize verification of FSS data.


COMMENTS ON ADMINISTRATIVE ITEMS



                                                 43
In addition, we note a few administative errors which should be corrected in the final report:

- OAM’s Automation Service Center (ASC) is now known as the Information Technology Service
Center (ITSC).

- References to the RTP Service Center should be replaced by RTP Procurement Operations
Division (RTPPOD).

- Technically, FSS guidance requires use of a Request for Quotes. Therefore, the term ‘bid’, used
throughout, should be replaced with ‘quote’. This is significant, particularly with respect to
allowing sufficient time for contractors to respond. We are requesting a quote rather than a
bid/proposal.

    We appreciate the opportunity to review the draft report and hope that our comments will be
taken into consideration, and that they will result in changes to the final report. While OAM
strongly supports the notion of competition in all procurement actions, we differ significantly in
our interpretation of what constitutes competition under an FSS order. We believe that the draft
report understates the true extent of competition for FSS requirements.

   Again, thank you for the opportunity to provide comments on the draft report. If you have any
questions, or comments, please call Judy Davis, Director, Office of Acquisition Management, at
564-4310, or Leigh Pomponio, Manager, Policy and Oversight Service Center, at 564-4364.




                                                 44
                                                                                       Appendix E



                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY

                                          WASHINGTON, D.C. 20460




                                                                                           OFFICE OF
                                                                                   REARCH AND DEVELOPMENT



                                              August 19, 2003

MEMORANDUM

SUBJECT: Response to the Office of Inspector General’s Draft Audit Report #2002-000589

FROM:         Paul Gilman /s/ Henry L. Longest II for
              Assistant Administrator (8101R)


TO:           Morris X. Winn
              Assistant Administrator
              Office of Administration and Resources Management (3101A)

       Thank you for the opportunity to include ORD’s comments with your Office’s response to
the Office of Inspector General’s (OIG) draft report on Federal Supply Schedule Services
Procurement. We value the contributions and services that our Simplified Acquisition
Contracting Officers (SACOs) provide to our outlying laboratories and are always seeking ways to
improve these services. We are, of course, equally concerned that the services provided by our
SACOs be in compliance with regulations and procedures, and in this case, specifically those
which increase competition and ultimately result in better utilization of our resources.

       In general, we agree with the findings in the report that are specific to our Narragansett
laboratory. We only request one change, which is a point of factual clarification. This change can
be found on the attached page.

       In addition, it should be noted that several corrective actions, as outlined below, have
already been taken at Narragansett, since the audit.

       •   The National Health and Environmental Effects Research Laboratory (NHEERL) is
           working closely with the new SACO, hired at the Narragansett laboratory in the
           summer of 2002, to ensure that she is adequately trained.

       •   The SACO is now requesting, and will continue to request, price reductions to Federal

                                                 45
           Supply Schedule orders.

       •   In pursuit of furthering competition, the SACO has identified that the voice mail and
           phone service be separate requirements, with only one being proprietary. She is
           exploring competition options for the non-proprietary service.

       •   The Atlantic Ecology Division’s (AED) Funds Control Officer and SACO now send
           reminders to the initiators of Purchase Requests (PR’s) for maintenance contracts
           several months in advance of the renewal due date to determine whether a follow-on
           contract is needed and to allow adequate lead time to process the procurement.

       •   Training initiated by NHEERL and AED is designed to improve the Division’s
           performance by stressing the need for adequate procurement planning in advance of
           immediate needs, providing adequate lead times, adhering to due dates, and proper
           documentation.

        Our reading of the recommendations cited in the report indicates that the actions are
directed to OARM/OAM. It is our opinion that these are sound recommendations and we will
work with OARM/OAM to fine tune the plan to implement them. We agree that better and more
advanced planning and increased measures to seek competition are needed.

       Again, thank you for the opportunity to comment on the draft report.

Attachment

cc:    Henry Longest
       Lek Kadeli
       Jim Morant
       Alice Sabatini
       Arnold Bloom
       Lawrence Reiter
       John Jones
       Steve Hedtke
       Patricia M. Jackson
       Jonathan Garber
       Karen Dean
       Judy Davis
       Bernie Davis




                                                46
                          Consolidated NHEERL Comments
                                          on
                               OIG Draft Audit Report
        EPA Can Improve Use of Federal Supply Schedules When Procuring Services
                                 Project No. 2002-000589
                               Received on July 25, 2003


1. On page 15, paragraph 2_, line _2, the draft report states:

    “While all 7 RTP orders included adequate IGCEs, no IGCEs were prepared for the 7 ORD
Narragansett awards, and 19 of the 25 OAM Headquarters’ orders were awarded without benefit of
a complete IGCE.”

RESPONSE: We request the following change to this portion of the draft report:

   “While all 7 RTP orders included adequate IGCEs, both the ORD Narragansett orders which
required an IGCE (2 out of 7), and 19 of the 25 OAM Headquarters’ orders were awarded without
benefit of a complete IGCE.”

Discussion: EPA Contracts Management Manual Chapter 2.9 states that “POs shall submit
IGCEs for all contract actions with a potential value in excess of the FAR threshold for “simplified
acquisitions.” While it later states that “COs may also require IGCEs for actions below the FAR
threshold for “simplified acquisitions” if deemed necessary and appropriate.” It does not appear
that the Narragansett SACO made this requirement; therefore, only the 2 awards over $100,000
were required by the FAR to have IGCEs.




                                                 47
48
                                                                            Appendix F


                                      Distribution

Assistant Administrator for Administration and Resources Management
Assistant Administrator for Research and Development
Agency Follow-up Official
Agency Audit Follow-up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Director, Office of Acquisition Management
Audit Liaison, Office of Administration and Resources Management
Inspector General (2410)




                                              49
